<html>
<title> - MILITARY TO ENTREPRENEURSHIP: PRIVATE SECTOR INITIATIVES TO HELP VETERANS PURSUE BUSINESS OPPORTUNITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 MILITARY TO ENTREPRENEURSHIP: PRIVATE 
                  SECTOR INITIATIVES TO HELP VETERANS 
                     PURSUE BUSINESS OPPORTUNITIES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                              MAY 7, 2014

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 113-067
              Available via the GPO Website: www.fdsys.gov

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-757                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4720372807243234332f222b376924282a69">[email&#160;protected]</a>  

                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                      BLAINE LUETKEMEYER, Missouri
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                   JAIME HERRERA BEUTLER, Washington
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                       DAVID SCHWEIKERT, Arizona
                       KERRY BENTIVOLIO, Michigan
                        CHRIS COLLINS, New York
                        TOM RICE, South Carolina
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                        BRAD SCHNEIDER, Illinois
                          RON BARBER, Arizona
                    ANN McLANE KUSTER, New Hampshire
                        PATRICK MURPHY, Florida

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Sam Graves..................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

Mr. Wade Franklin, Owner, The UPS Store Clarendon, Arlington, VA, 
  testifying on behalf of the International Franchise Association     3
Ms. Dawn Smith, Founder and CEO, Mystic Reme Teas, Greenville, 
  SC, testifying on behalf of the Business and Professional 
  Women's Foundation.............................................     5
Mr. Davy Leghorn, Assistant Director, National Employment and 
  Education Division, The American Legion, Washington, DC........     7
Mr. Charleston Malkemus, Founder and CEO, Gozump, Inc., Miami, 
  FL, testifying on behalf of The U.S. Chamber of Commerce 
  Foundation.....................................................     9

                                APPENDIX

Prepared Statements:
    Mr. Wade Franklin, Owner, The UPS Store Clarendon, Arlington, 
      VA, testifying on behalf of the International Franchise 
      Association................................................    24
    Ms. Dawn Smith, Founder and CEO, Mystic Reme Teas, 
      Greenville, SC, testifying on behalf of the Business and 
      Professional Women's Foundation............................    28
    Mr. Davy Leghorn, Assistant Director, National Employment and 
      Education Division, The American Legion, Washington, DC....    35
    Mr. Charleston Malkemus, Founder and CEO, Gozump, Inc., 
      Miami, FL, testifying on behalf of The U.S. Chamber of 
      Commerce Foundation........................................    42
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Honor Capital Equity for Veterans submitted by James S. 
      Allen, Jr., President......................................    50


   MILITARY TO ENTREPRENEURSHIP: PRIVATE SECTOR INITIATIVES TO HELP 
                 VETERANS PURSUE BUSINESS OPPORTUNITIES

                              ----------                              


                         WEDNESDAY, MAY 7, 2014

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:00 p.m., in Room 
2360, Rayburn House Office Building. Hon. Sam Graves [chairman 
of the Committee] presiding.
    Present: Representatives Graves, Chabot, Herrera Beutler, 
Hanna, Bentivolio, Collins, Rice, Velazquez, Schrader, Chu, 
Hahn, Payne, Meng, Schneider, and McLane Kuster.
    Chairman GRAVES. Good afternoon. We will call the hearing 
to order.
    Today, this hearing, I think it is going to be a very 
informative hearing.
    There are over 22 million veterans right now living in the 
United States, and by 2040, those who served in Iraq and 
Afghanistan are going to make up 50 percent of the entire 
veterans population. The unemployment rate for these younger 
veterans is higher than that of their civilian counterparts and 
is one of the many challenges that they face transitioning into 
civilian life.
    Despite the obstacles associated with this readjustment 
from military service, veterans possess a unique set of skills 
learned in the military, such as the ability to lead, 
communicate effectively, and execute tasks efficiently and with 
precision. This may be why veterans tend to be more 
entrepreneurial than the rest of the population. In fact, each 
year since 1979, the self-employment rate for veterans has 
remained higher than that of the rest of the population 
overall.
    Given the roadblocks faced by veterans, combined with their 
propensity for small business ownership, numerous efforts have 
been created in the private sector designed to assist veteran 
entrepreneurs in achieving their goals. In creating programs 
that provide entrepreneurial training, mentorship, financial 
assistance, and networking opportunities, private organizations 
have stepped up to the plate for our nation's returning heroes.
    One such effort is getting started back in my district in 
North Missouri. Jim Allen, a community leader in Platte County, 
is forming an organization called Honor Capital. Backed by a 
group of investors committed to helping veterans obtain quality 
employment, Honor Capital is also planning to assist veterans 
in opening their own Save-A-Lot grocery stores.
    One of the group's partners, Army Captain Marc Esposito, is 
in the audience today. A graduate of the U.S. Military Academy 
and an Army helicopter pilot, Captain Esposito flew over 400 
MEDEVAC missions in Afghanistan, and he is here with us today.
    Today, we are going to learn about some of the other 
efforts that are assisting our nation's heroes in transitioning 
to the world of entrepreneurship. We are fortunate to have with 
us a group of veteran entrepreneurs and small business owners, 
and we look forward to hearing all of their stories. And I want 
to thank you for your service to your country and for being 
here.
    I now recognize Ranking Member Velazquez for her opening 
statement.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    By developing new products, advancing research, and 
creating new markets, entrepreneurs are an important force in 
our economy. Over the years, we have repeatedly seen the 
important role veterans play in this process. Due to the 
leadership, training, perseverance, knowledge of the government 
procurement process and other skills acquired in the military, 
veterans are often uniquely qualified to launch and manage 
their own businesses. In fact, in today's private sector 
workforce, veterans are 45 percent more likely to be self-
employed compared to workers without active duty military 
experience.
    Currently, there are about 2.5 million veteran-owned 
businesses. About one in 10 that generate over one trillion 
dollars in receipts. Clearly, for many men and women leaving 
the service, entrepreneurship provides a promising opportunity 
to continue serving their country and creating jobs in their 
local communities, all while supporting their families.
    Despite the rich tradition of veterans owning small 
businesses, the veteran-owned employment rate sits around 9 
percent. For that reason, both public and private initiatives 
have been established to assist transitioning servicemembers. 
Unfortunately, those initiatives often fail to develop 
veterans' entrepreneurial goals. Besides the Small Business 
Administration's veteran-focused program, like the Veterans 
Business Outreach Centers and the Boots to Business Program, 
the private sector has their own efforts to assist veterans. 
Many of these projects are multidimensional, offering 
everything from a basic course on running a business to helping 
prospective entrepreneurs secure start-up capital.
    Today we will hear from several veteran entrepreneurs about 
their first-hand experiences with some of these programs. It is 
my hope that they can highlight for us what they found 
beneficial, where improvements can be made, and identify gaps 
in how these services reach veterans.
    Assisting entrepreneurs will require integrated 
comprehensive solutions that leverage a combination of 
government, nonprofit, and private efforts. Despite the 
progress we have made, hundreds of thousands of veterans and 
their families continue to struggle, demonstrating how much 
more needs to be done. It is incumbent on all of us to ensure 
that resources reach the veterans and servicemembers these 
programs are meant to help. In that regard, as we examine 
private-sector initiatives, we must consider ways they can 
complement government programs to maximize effectiveness.
    I thank all the witnesses for being here today. Your 
testimony will help inform the committee as we move toward that 
goal.
    On that note, I thank the chairman for the time, and I 
yield back.
    Chairman GRAVES. All right. Our first witness today is Wade 
Franklin, who is the owner of the UPS Store in Arlington, 
Virginia. After graduating from the U.S. Naval Academy in 2005, 
Mr. Franklin served seven years in the U.S. Navy, which 
included multiple wartime deployments in Afghanistan, Japan, 
and the Persian Gulf, where he steered ships, led teams of 
sailors, and supervised a wide range of technical experts. Mr. 
Franklin today is testifying on behalf of the International 
Franchise Association.
    Thanks for being here. We appreciate it.

STATEMENTS OF WADE FRANKLIN, OWNER, THE UPS STORE; DAWN SMITH, 
  FOUNDER AND CEO, MYSTIC REME TEAS; DAVY LEGHORN, ASSISTANT 
   DIRECTOR, NATIONAL EMPLOYMENT AND EDUCATION DIVISION, THE 
AMERICAN LEGION; CHARLESTON MALKEMUS, FOUNDER AND CEO, GOZUMP, 
                              INC.

                   STATEMENT OF WADE FRANKLIN

    Mr. FRANKLIN. Chairman Graves, Ranking Member Velazquez, 
and members of the Committee, thank you for inviting me to 
testify today on ways that the private sector can assistant 
veterans in pursuing business ownership and other 
opportunities. My name is Wade Franklin, and I am the owner of 
a UPS Store franchise in Arlington, Virginia, and a veteran of 
the United States Navy. I appear before you today on behalf of 
the International Franchise Association.
    Franchising is a large community of diverse businesses that 
all grow and operate using the franchise business model. In 
this model, entrepreneurs open their own establishments and 
purchase the rights to operate their business using the 
trademarks, products, and business strategies of a proven 
franchise system. Franchises are very common in the restaurant 
and hospitality space, but franchising is also popular in 
business services, personal services, retail, and automotive.
    I left the Navy in February 2012, and was looking for 
employment opportunities during the previous fall. The 
prevalent prospects were corporate management jobs that many 
junior officers are drawn to, but I did not necessarily want to 
go down that path. While searching for opportunities for 
veterans, I came across VetFran, the International Franchise 
Association's veteran transition program, and saw the financial 
incentives that hundreds of franchise systems offered to 
veterans who opened franchise businesses. One of the 
opportunities that most appealed to me was the UPS Store, who 
at the time was offering to waive the $30,000 franchise fee for 
the first 10 veterans approved as franchise owners in 2012. I 
was approved to become a UPS store franchise owner in February 
2012, and I was one of the 10 veterans that had their initial 
franchise fee waived.
    There are obvious challenges to jumping straight into 
running a business without prior business experience, which few 
veterans have. I went to the Naval Academy out of high school 
and spent the next seven years in the Navy. While I learned 
many valuable skills in the Navy, the military is not the best 
form to prepare veterans to own a business. The military does a 
terrific job of supporting us while serving, but the enormous 
risk of opening a business in civilian life while leaving 
behind many of the resources previously provided by the 
military can be daunting. To that end, private sector programs, 
such as VetFran, can be extremely beneficial in filling the 
support gap that often exists for veterans. For me, the most 
important part of the decision was assessing the financial 
resources available to me, and allocating those resources as 
best I could. That was, and remains, the most difficult 
obstacle for me to overcome in becoming a business owner.
    Franchise models have complex, yet effective operations 
guidelines, and the franchise owners that can best execute the 
system are those who realize the most success. Our nation's 
servicemen and women have many of the qualities that make 
successful franchise business owners. The attention to detail, 
situational awareness, and communications skills are benefits 
learned in the Armed Forces. Above all else, veterans possess 
the leadership skills necessary to run a successful small 
business, and to persevere through the tough times that keep 
that business running.
    Recognizing that franchising is a great fit for 
entrepreneurial veterans, the International Franchise 
Association launched VetFran in 1991 to encourage franchise 
companies to recruit veterans as franchise owners. As part of 
VetFran, franchisors offer special incentives to qualified 
veterans who enter into franchise agreements ranging from 
thousands of dollars in initial inventory to special financing 
on equipment.
    In a report on Veterans Day in 2013, a survey revealed that 
the franchise industry has nearly doubled its hiring target 
since 2011 with over 151,000 veterans having started careers in 
franchising. However, we are most proud of the fact that over 
5,000 veterans have been recruited as franchise owners across 
hundreds of franchise systems. Unsurprising, the survey went 
further to indicate that veteran-owned franchises were more 
successful than other franchises, far outpacing nonveteran-
owned units in both sales and numbers of jobs created. I am 
proud to say that the UPS store participates in the VetFran 
initiative and note that the network has more than 150,000 
veteran owners that have taken advantage of this program, and 
over 280 stores are operated by those veterans.
    I like to think I am smart and resourceful enough to have 
navigated my way through opening a business without the help of 
VetFran, but there is no doubt that the program was a 
significant catalyst in starting my business. Legislation in 
the House of Representatives, the Veterans Entrepreneurs Act of 
2013, will provide a tax credit to qualified veteran franchise 
owners worth up to 25 percent of the initial franchise fee, 
capped at $400,000. In addition to the real estate, equipment, 
and inventory necessary to operate a franchise, the initial 
franchise fee is a significant investment, and remains a 
barrier to opening a franchise. When coupled with the 
incentives offered through VetFran, this tax credit will go a 
long way towards helping veterans open new businesses and 
create opportunities for both themselves and others. The 
franchise community has a demonstrated record of success in 
implementing veterans' programs and we believe that this 
legislation will serve to expand on the success while providing 
veteran entrepreneurs with significant financial resources to 
realize the American dream of owning and operating their own 
small business.
    I believe that this type of effort, one that marshals the 
information and expertise from hundreds of companies across 
many industries, is a successful model to help provide 
businesses opportunities for veterans.
    I thank you for the opportunity to testify today and I look 
forward to answering any questions you may have.
    Chairman GRAVES. Thank you, Mr. Franklin.
    Our next witness is Dawn Smith, who is the founder and CEO 
of Mystic Reme Teas, which is an online tea retailer in 
Greenville, South Carolina. Ms. Smith served eight years in the 
Air Force, completing multiple deployments in Iraq, 
Afghanistan, Turkey, and Germany, where she was in charge of 
managing troop and cargo movement and logistics. Ms. Smith is 
testifying on behalf of Business and Professional Women's 
Foundation. Thank you for being here. I look forward to your 
testimony.

                    STATEMENT OF DAWN SMITH

    Ms. SMITH. Thank you, Mr. Chair, Madam Ranking Member, and 
members of the Committee, thank you for the opportunity to be 
here today. My name is Dawn Smith. I am the founder and CEO of 
Mystic Reme Teas in Greenville, South Carolina, and testifying 
today on behalf of Business and Professional Women's 
Foundation.
    As a woman veteran who recently started my own business, I 
hope my experiences can be helpful to the committee as you 
examine which government and nonprofit programs can best assist 
and meet the unique needs of women veterans as they transition 
back to civilian life.
    I am proud of my military service. I served in the Air 
Force for eight years and deployed six times to Iraq, 
Afghanistan, Turkey, and Germany. My expertise in the military 
was logistics, which means I was responsible for making sure 
that movement of both troops and cargo got to the right place 
and were on time. In both Iraq and Afghanistan, I was in charge 
of terminal operations for processing and loading more than 
7,000 passengers and directing the shipment of hundreds of 
thousands of tons of cargo. My work was consistently recognized 
for meeting excellent delivery and departure standards. I also 
earned my MBA while in the military.
    Because of my advanced logistics experience and MBA, I 
really did not think I would have a problem finding a rewarding 
career when I left the service. But when I returned home to 
North Carolina to raise my children on my own, I was not even 
considered for management jobs. Instead, I was offered 
positions like a warehouse worker, which I did not think 
utilized my skills, education, and experience. For a couple 
years, I took various jobs that did not fit my background, 
including working as a teacher, a secretary, since I needed to 
feed my children. These jobs offered neither the career I was 
seeking, nor the salary suitable for my experience.
    While working, I continued to look for more rewarding and 
financially secure positions. I returned to school to begin a 
master's degree in accounting, but looking for a job while 
managing the demands of work, school, and motherhood, I became 
discouraged. I knew I needed help, so I turned to the Internet 
to see what career resources might be available for a woman 
veteran. I was very fortunate to find Business and Professional 
Women's Foundation, a nonprofit organization that runs a free 
career mentoring program for women veterans, Joining Forces 
Mentoring Plus. What attracted me to the program was that 
working women volunteered for women like me, to help navigate 
us on a path to successful civilian careers and even pursue 
entrepreneur opportunities. Participants can access a ``high-
tech/high-touch'' Internet community that includes experienced 
women mentors as coaches, navigators, and supporters for free.
    I immediately signed up and was assigned a wonderful, 
accomplished mentor, Sandy Smith. Sandy worked with me one-on-
one and was persistent in offering advice and support on 
everything from interview skills to resume development. She 
pushed me, checking on how many resumes I sent out each day. 
She helped me create a new mindset that gave me the courage to 
apply for positions that previously I would not have thought 
possible. In 2012, I was hired as an auditor by the U.S. 
Defense Contract Audit Agency. I am happy to report that my 
salary at this job is twice what I had been making previously. 
After the job, Sandy, my mentor, did not leave me on my own but 
coached me on office etiquette and protocols necessary to 
successfully navigate the civilian sector workplace. All of 
Sandy's mentoring and coaching paid off.
    I love my job, and feel my career is now on very solid 
ground. But even though I love my job, I have always dreamed of 
owning my own business. With Sandy's encouragement and suitable 
mentoring, I was able to start my online store that sells my 
brand of tea. I am very excited that Mystic Reme Teas is 
currently in the final selection round to appear on Shark Tank. 
If I am chosen, I will be seeking funding to open my own tea 
bar.
    I truly believe that none of this would have happened 
without the personal mentoring and wide array of career 
resources offered by BPW Foundation. It was so successful for 
me because it was designed by and for women. Other veteran-
based employment and career development programs too often miss 
the unique elements and needs that matter most to women 
veterans. We need awareness and guidance and employment 
resources and programs that support and recognize the multiple 
roles impacting women veterans and their access to jobs.
    I can attest to the fact that women leaving the service 
often face unique challenges, including single motherhood or 
caregiving for family members, including wounded warriors. 
Also, women veterans often do not identify as veterans and do 
not know that they can access a wide array of benefits. We are 
frequently looked at differently from our fellow male veterans. 
Women who served in war zones are often not afforded the same 
level of prestige as their male counterparts. Thanks to the 
general support of BPW and the partners such as Alliant Credit 
Foundation, Booze Allen Hamilton, Citi, CVS, and others, there 
is no cost to participate in these mentoring programs. It is 
absolutely free for women who participate.
    Thank you for this opportunity to share my story and tell 
about the resources that helped me begin my successful career 
and start my business. I hope that other women veterans will 
benefit from my experience and that the Committee will support 
programs that are tailored for the challenges and needs that 
our women veterans face as they seek meaningful lives after our 
time in the military. Thank you.
    Ms. VELAZQUEZ. Mr. Chairman, it is my pleasure to introduce 
Mr. Davy Leghorn. Mr. Leghorn is assistant director of the 
National Employment and Education Division for The American 
Legion, the largest veterans' service organization in the 
country. In his current capacity, Mr. Leghorn oversees the 
employment and small business portfolios and administers The 
American Legion's National Veterans Hiring Initiative. Prior to 
joining The American Legion, he served in the United States 
Army as both a mortar infantryman and a civil affairs 
specialist. Welcome.

                   STATEMENT OF DAVY LEGHORN

    Mr. LEGHORN. Chairman Graves, Ranking Member Velazquez, and 
distinguished members of the Committee, on behalf of Commander 
Dellinger and the two and a half million members of The 
American Legion, we thank you for the opportunity to discuss 
our views regarding private sector initiatives for veteran 
entrepreneurs. The American Legion is one of the few 
organizations that deliver privately-funded resources 
exclusively to the veterans' community at no cost because we 
believe that our servicemembers, veterans, and spouses have 
already paid for our programs with their service. The bulk of 
our entrepreneurial resources are delivered biannually, 
coinciding with our winter conference and national convention. 
Our convention moves from state to state each year, and as 
such, we have managed to spread our services across the 
regions. Boost to Business, or B2B is a modular curriculum that 
has been piloted and is now being implemented. The curriculum 
was designed for transitioning servicemembers as a result of an 
agreement signed by various agencies to revamp the Transition 
Assistance Program in compliance with the 2011 VOW to Hire 
Heroes Act.
    Boots to Business is a phenomenal off-the-shelf curriculum 
that can be tailored to serve different segments of the 
veterans' community. With minor adjustments, B2B was adapted 
exclusively for female veterans and spouses. This is the second 
year The American Legion has hosted a two-day women's 
entrepreneurship and resources workshop based off of this 
curriculum, and we have had remarkable attendance rates. One 
way we know we are delivering a quality product is when 
iteration after iteration we see next to zero percent attrition 
rate in attendance between the two days. Going forward, The 
American Legion will be working with Syracuse University and 
SBA's Office of Veterans Business Development to tailor the 
curriculum in a new program that will be called Reboots to 
Business where we will deliver the B2B curriculum to the rest 
of the veterans population. The first class of Reboots to 
Business will be hosted in conjunction with our national 
convention this year in Charlotte, North Carolina.
    Though our programs do not receive federal funding, we are 
utilizing a hybrid B2B curriculum developed by SBA's OVBD and 
Syracuse University. Further, our training sessions draw 
heavily upon SBA's grantees and resource partners for speakers 
and facilitators that ensure our training sessions are 
successful. Looking at the amount of interest from our small 
business workshops, The American Legion knows that our programs 
and services do not have the bandwidth to support the entire 
veterans' community. For instance, registration for our women's 
small business workshop recently held in Houston had to be 
capped at 120 registrants and additional people were 
regrettably waitlisted. Veterans came from as far as Nevada and 
Missouri to attend this event. Further, The American Legion 
only has one counselor on staff to assist with business 
formation and VA verification issues. We rely heavily on SBA's 
resource partners and our volunteers from The American Legion 
Small Business Task Force to act as mentors and advocates.
    While there are a few free entrepreneurial programs and 
counseling services for veterans, it is hard to find services 
that are both, one, exclusive to the veterans' community, and 
two, do not receive federal funding. The more dependable 
entrepreneurial programs for the veterans' community have been 
the federally-funded programs, such as the Veterans Business 
Outreach Centers (VBOCs) and the versatile Boots to Business 
curriculum, and the myriad of many MBA programs for veterans 
that are hosted at various universities.
    Entrepreneurship training requires the kind of expertise 
that is gained through experience. Veterans need counselors who 
understand their culture and experience. VBOCs fill this void 
and provide a unique service to veteran entrepreneurs that 
cannot be duplicated by existing programs within SBA or VA. 
Ideally, The American Legion prefers that VBOCs retain sole 
ownership and deliver B2B to transitioning servicemembers, but 
unfortunately, after 15 years of program growth, the network is 
still too small and underfunded to support this task.
    Small business outreach and training programs offered 
through prime federal contractors only work with established 
businesses and rely on proceeds from federal contracts for 
support. Veteran entrepreneurship programs funded by 
philanthropic support alone rarely lasts more than a couple 
years. The most reliable entrepreneurship programs available 
for veterans are the Training and Assistance Programs offered 
through SBA's OVBD. Any discussion that seeks to reduce funding 
or inhibit the operations of this office will be met with 
opposition from The American Legion.
    Assistance to veterans who have honorably served our nation 
is an earned benefit. Historically, the support for veteran-
owned small businesses has been strong and bipartisan. The 
American Legion looks forward to working with this Committee on 
these issues. Thank you for the opportunity to testify, and we 
look forward to any questions the Committee may have.
    Chairman GRAVES. Thank you, Mr. Leghorn.
    Our next witness is Charleston Malkemus, founder and CEO of 
Gozump, Inc., from Miami, Florida. Gozump is a real estate 
brokerage championing home buying for military families. He 
serves as a major in the United States Marine Corps Reserve, 
where he is a ground intelligence officer and led a scout 
sniper platoon through two combat deployments in Iraq. He is 
testifying on behalf of the U.S. Chamber of Commerce 
Foundation. Thanks for being here, and I look forward to your 
testimony.

                STATEMENT OF CHARLESTON MALKEMUS

    Mr. MALKEMUS. Thank you, Chairman Graves. Good afternoon, 
distinguished members of the Committee. My name is Charleston 
Malkemus, and I am the founder and chief executive officer of 
Gozump, Inc. Thank you for providing us with an opportunity to 
discuss with you veterans and entrepreneurship.
    The ``next'' greatest generation of America is coming home. 
Over the next five years, America will have more than a million 
servicemembers transitioning, who have been fighting this 
nation's battles for over a decade. They have endured every 
hardship known to man. They have been diplomats and community 
leaders, restored people's homes and freedoms, solved problems 
of unparalleled complexity, and led some of our nation's best 
and brightest. All of them volunteered to serve and potentially 
sacrifice for the greater good of America. They represent less 
than half a percent of the population and are this country's 
greatest resource.
    We have an opportunity today to capitalize on the surge of 
veteran talent coming home in order to move America forward. 
Whether through America's small businesses or leading new 
ventures, veterans have a wealth of capabilities that are 
ideally suited to solving this nation's problems. While they 
will be confronted with many challenges reintegrating into 
civilian life, none will be greater than finding a way to 
continue to serve. Communities and businesses will benefit the 
most from directly engaging veterans with their problems and 
providing them with the resources and equipment to overcome 
them.
    Private sector initiatives have to be prepared for 
transitioning veterans. Hiring Our Heroes, a program of the 
U.S. Chamber of Commerce Foundation, is an excellent example of 
the efforts that are necessary. Working with their vast network 
of chambers and strategic partners, Hiring Our Heroes has been 
creating a movement across America. They are rallying 
communities to find veterans, and their spouses, meaningful 
employment while supporting the work of veteran-friendly 
businesses like Gozump.
    Gozump's story began way back on the battlefields of Iraq. 
Like many entrepreneurs, I had a personal friction point, and 
during my second deployment, I was leading a scout sniper 
platoon through Operation Steel Curtain. I received an email 
that said the real estate market back home was not looking so 
good, so I realized, okay, I am going to have to do something 
about it. When I got home, I was confronted with the very real 
challenges of having to go through the friction points of 
selling my home, very similar to what I had to go through when 
I was trying to buy my home, being relocated out to Camp 
Pendleton, California. When I started to investigate this 
problem, I realized there really was not any sort of 
application or solution that was out there at that time, a very 
comparable story to many entrepreneurs across America.
    I quickly realized not too soon after that, when the real 
estate market started to come crashing down, that this was some 
friction points that more than myself and many Americans were 
feeling. After many years of research, a lot of sweat and 
equity, recruiting, I was eventually able to lead a team of 
Marines that all decided to go out and combat this problem, and 
today, home buying still persists as probably one of the most 
frustrating problems in America within the Internet age.
    We had the fortunate opportunity of being selected last 
year for a competition within the Chamber of Commerce. They 
were trying to find one of the most veteran-friendly small 
businesses in America, and we were honored with being selected 
as one of the top four for that competition. But my initial 
introduction to the U.S. Chamber of Commerce went back to when 
I was a unit commander of 156 marines in Hialeah, Florida. And 
I will be honest with you. A lot of those marines were having 
trouble finding employment. Some of them were sleeping in their 
cars. People who had gone over to Iraq and fought, they were 
sleeping in their cars, and these were distinguished men and 
women of America. They were struggling to go to school, have a 
better life, feed their families. They were trying to 
transition into civilian life as best they could, and for the 
most part, they were met with a lot of frustration.
    Me and my team decided to volunteer. We got involved. We 
got committed. We spent hundreds of hours--Joint Task Force, 
regional boards, business breakfasts. And I will be honest with 
you. The commentary that we heard from most of the business 
leaders is that there is a great feeling of alienation with 
their military. They do not identify, and PTSD and the campaign 
for post-traumatic stress disorder has really only increased 
that feeling of separation. It is an unfortunate situation 
because so many men and women who have served obviously have 
those type of conditions, but the lack of knowledge around it 
has fostered this kind of impression that they do not know how 
to effectively deal with it.
    As an American veteran and entrepreneur, I have enjoyed 
great satisfaction working in the start-up community, and it 
was not until attending a Hiring Our Heroes job fair that I 
realized that veterans themselves as a community are ideally 
situated for start-ups and small businesses. A start-up is the 
closest professional replacement for military life. Veterans 
are not only familiar with high stress, fast-paced and volatile 
working conditions, many of them thrive in them. They have been 
conditioned to work insane hours to accomplish incredible 
objectives and never worry about yesterday's disappointments. 
Over the next five years, small businesses in America will have 
this unique opportunity to tap into this veteran talent pool.
    Now, as Chairman Graves had alluded to earlier, studies 
have shown that over 45 percent of military veterans are more 
likely to start a business, twice as likely to succeed, and 
favored by consumers 70 percent of the time. Despite these 
odds, they will need both direction and resources to be 
successful. Unfortunately, a national veteran program for 
entrepreneurship on par with the Chamber Foundation's 
Initiative for Employment does not exist. As a team, we have 
recognized this as a critical shortfall to a veteran's 
successful transition and have decided to launch a program in 
South Florida. Veterans are best positioned to solve problems, 
whether as valuable team members in America's small businesses 
or leading new ventures.
    Chairman Graves, distinguished members of the Committee, I 
thank you again for the opportunity to testify and look forward 
to answering your questions.
    Chairman GRAVES. Thank you all very much, and we are going 
to start questions with Mr. Bentivolio.
    Mr. BENTIVOLIO. Thank you very much, Mr. Chairman, and 
thank each and every one of you fellow veterans. Good job. I am 
very proud, Mr. Franklin, great organization, UPS, but I have a 
question, Ms. Smith, you have experience in the Air Force as a 
logistics person, and it seems to me that you might be more UPS 
oriented. So did you look into UPS at all?
    Ms. SMITH. No, sir. I did not look into UPS.
    Mr. BENTIVOLIO. Okay. While, I was thinking about this and 
reading over the briefing that I have for this hearing, I was 
going through it and I just wanted to point out to the chairman 
and anybody else who cares to listen, that this is a field 
manual from the United States Army. It is 101-5. And in the 
back here you will find a document called an operational or op 
plan. Are you familiar with that, op plan? You know, it does 
not--go ahead.
    Ms. SMITH. Yes, sir. I am.
    Mr. BENTIVOLIO. Yeah. It does not take much to--well, if 
you are familiar with this, you can apply this for a business 
plan, could you not? And I think just recently, business plans 
have become more important when we start a business. And I 
think the surge in the military of teaching soldiers what an 
operational plan is all about, you know, with little 
imagination they can apply that same format to a marketing 
plan. Am I correct?
    Ms. SMITH. Yes, you are, sir.
    Mr. BENTIVOLIO. So being in the military, you are not only 
learning the job and a skill may not be related to your 
civilian career, but there are things in the military you can 
apply as the chairman and the ranking member pointed out--
communication skills, leadership skills, that kind of thing; 
right?
    Ms. SMITH. Yes, sir.
    Mr. BENTIVOLIO. Mr. Malkemus, you focused on post-traumatic 
stress. You mentioned that in your testimony.
    Mr. MALKEMUS. I did. I did. Yes, Congressman.
    Mr. BENTIVOLIO. Just a little sidebar here. I do not 
consider that a disorder. I think it is misnamed because every 
veteran that has experienced combat comes back with some post-
traumatic stress, and I think it is a natural thing. They have 
experienced something few people have experienced, and to call 
it a disorder is the wrong thing. I think it is discriminating 
and it is unwarranted. But soldiers that have been in combat 
know what it is like to take a lot of stress and still do the 
right thing; correct?
    Mr. MALKEMUS. Oh, I agree completely with you, Congressman.
    Mr. BENTIVOLIO. Just like in business.
    And Mr. Franklin, if you do not mind here, how would you 
describe to the Committee, or would you describe to the 
Committee how you initially found VetFran initiative? Did you 
say that or did I miss it?
    Mr. FRANKLIN. No, sir. I did not. I shortened my written 
testimony, shortened it for the speech. It is actually Google. 
I found it through Google. As I said, briefly, I was 
transitioning and saw the opportunities for me to go into 
different management jobs and decided I wanted to do something 
completely different and decided--I wanted to look to see what 
opportunities I could have to work for myself. That is what 
seemed most appealing.
    Mr. BENTIVOLIO. Every soldier knows how to use social 
network after they have been deployed.
    Mr. FRANKLIN. Absolutely. Absolutely. I agree.
    Mr. BENTIVOLIO. Go ahead.
    Mr. FRANKLIN. I was just going to say, so I just Googled 
veteran franchise opportunities and VetFran came up. I went 
there and it is more of a resource, just connecting information 
with veterans that are interested. It lists how much it costs 
to get into the different franchises, hundreds of different 
franchises, and every veteran has a different personal 
financial ability, and then I was able to match up what I could 
do with what was available and that is really how VetFran 
helped me out and that is how I found it.
    Mr. BENTIVOLIO. Very good. God bless the UPS for giving 
this opportunity to our veterans.
    Mr. FRANKLIN. Absolutely.
    Mr. BENTIVOLIO. What advice would you give to other 
returning veterans searching for business opportunities?
    Mr. FRANKLIN. Do not limit yourself. I guess one of the 
things I think that VetFran can help someone do--and this is my 
own personal experience talking to other veterans is, you know, 
veterans do not really consider franchising as an option 
because they see the price tag. And there was this price tag 
and it required me to take a loan and use a lot of my personal 
savings to get into it, but it required me to sort of ignore a 
lot of risk, which I know most veterans probably are a little 
more willing to accept a little risk. But I think do not limit 
yourself.
    Mr. BENTIVOLIO. Veterans willing to accept a little risk?
    Mr. FRANKLIN. A lot of risk. We will put it at a lot of 
risk, sir.
    I think not limiting yourself. That is probably one of the 
biggest things is just do not look to see what the 
opportunities are and then say, well, I cannot do that. I think 
going in with an attitude of let us at least try. Let us give 
it a try.
    Mr. BENTIVOLIO. Speaking of risk, veterans know about risk 
assessment, do they not?
    Mr. FRANKLIN. Absolutely, sir.
    Mr. BENTIVOLIO. They know how to evaluate a situation or a 
mission and put together a risk analysis, do they not?
    Mr. FRANKLIN. Sometimes to a painful point.
    Mr. BENTIVOLIO. Yes, very good.
    I see I have run out of time. Mr. Chairman, thank you very 
much. I yield back.
    Chairman GRAVES. Ranking Member Velazquez?
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Mr. Leghorn, in testimony given to the committee, witnesses 
have stated that veterans generally hire other veterans. 
Moreover, disabled veteran businesses are much more likely to 
hire other veterans with disabilities or join with other such 
businesses to compete for a contract. Therefore, at a time when 
the unemployment rate for veterans returning from Iraq and 
Afghanistan is over nine percent, it is vital that we get 
contracts to these businesses. I would like for you to share 
with this committee, do you feel that breakdowns at individual 
agencies have impeded the ability of veterans small businesses 
to get contracts within the federal marketplace? Do you think 
that the federal marketplace contracting practices in any way 
do not provide a level playing field for veterans to be able to 
do business with the federal government?
    Mr. LEGHORN. Thank you for your question, ma'am.
    We do feel that there are certain barriers for veterans to 
get contracts in the federal procurement space. Namely, a lot 
of that comes from the Department of Veteran Affairs. Granted, 
they are doing a better job of verification. There are still 
some lapses in I would say judgment calls in some of the cases 
that I have worked with. So, for example, I have had a recent 
case, a small business, very complex structure. She had a lot 
of her joint ventures stripped of a CVOSB status because of the 
lengthy verification process. So administratively, there are 
barriers. Again, it is at the Department of Veteran Affairs.
    Ms. VELAZQUEZ. Okay.
    Ms. Smith, because of limited access to credit and 
lingering economic uncertainty, many VC firms are hesitant to 
invest in startup firms. Besides tax policies, how can we 
encourage more angel investors and private foundations to 
invest in new veteran-owned enterprises?
    Ms. SMITH. Madam Ranking Member, that is a very good 
question. I think the problem is a lot of people are scared to 
invest in businesses, and I would just suggest that they take a 
chance for veterans because we have really great resources with 
veterans and veteran-owned businesses.
    Ms. VELAZQUEZ. Okay.
    The SBA offers average programs designed to provide a wide 
array of services to both prospective and established business 
owners. Before you reached out to the foundation, had you 
pursued any services from the SBA, like the Veterans Business 
Outreach Center? And if you did, would you share your 
experience?
    Ms. SMITH. Yes, ma'am. I am glad you asked that question 
because honestly, to start my business, I was aware of the 
Patriot Express Loan through the SBA and I tried initially to 
go through them to get funding for my business. Actually, my 
business is completely my own investment. I strapped the whole 
thing. I was denied, and I thought the process was supposed to 
be easy and simple for veterans, especially if you have great 
credit, like I do, and you have a great business plan.
    Ms. VELAZQUEZ. So you applied for a loan and the loan was 
declined?
    Ms. SMITH. Yes. And they made it seem like it was a lot of 
different loops and barriers that you had to go through. And 
that seems to me very discouraging for veterans, especially 
when you have all these avenues for veterans that are supposed 
to make the system easier. So it was discouraging and then I 
just decided to go for it myself with my own money. And 
thankfully, I am, like I said, at the final rounds for Shark 
Tank because I took that initiative on my own. But I think 
there is a breakdown, some type of disconnect with the programs 
that they say are available and funding that is actually 
available to the veterans.
    Ms. VELAZQUEZ. Well, maybe later you can share with me the 
specific reasons for them not approving your loan.
    Ms. SMITH. I would love to, ma'am.
    Ms. VELAZQUEZ. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman GRAVES. Mr. Collins?
    Mr. COLLINS. Thank you, Mr. Chairman.
    You know, again, thank you all for your service. And what I 
am trying to get my arms around a little bit is when I look at 
some of the preparation materials here it says that basically 
today the unemployment rate for veterans is 6.9 and for the 
rest of the population 6.7. So not to say 6.9 and 6.7--I think 
they are fairly similar. I am just wondering as I look at 
veterans and knowing myself as an employer, I will hire a 
veteran over someone else every day of the week because of what 
you have been through and all the training you have gone 
through. So I am wondering if some of the unemployment numbers 
have to do with the fact you have got a lot of veterans coming 
out just starting to look for jobs. For instance, if you looked 
at the unemployment rate of recent college graduates, God only 
knows what that is. That is probably 20 percent. Veterans 
coming out of the war are new to the workforce looking versus 
when you look at the entire civilian population. That includes 
everyone that has been working 10 years, whatever. I just 
wonder, you know, maybe Mr. Leghorn, do you think it is 
statistically significant the 6.9, the 6.7 and you are 
measuring folks just entering the workforce against folks that 
have been in the workforce?
    Mr. LEGHORN. I will admit the overall unemployment rates 
are really similar right now, but we, of course, focus on our 
post-9/11 veterans, which is substantially higher compared to 
their civilian counterparts. And when administering our 
services, as of right now that is what we are attacking, 
because if we can lower it there, we can lower the entire 
unemployment.
    Mr. COLLINS. I think maybe the point I am trying to make is 
what we should be doing is looking for jobs for everybody. We 
need the economy to move. If the entire economy was growing 
three and a half percent, we might not even be having this 
hearing. I do not know. I think the biggest issue I see is an 
economy that is stuck for a lot of reasons, tax policy being 
foremost.
    The remaining time, certainly, Ms. Smith and Mr. Franklin, 
when I look at starting a business, and I have done that, 
number one, you need a good business plan. Number two, you need 
access to capital. And number three, you have to have a 
willingness to give up equity. That is the most painful piece. 
You are going to do the work. You are going to put your neck on 
the line and somebody else wants half your company. What do you 
say to folks, veterans trying to start their company? Do you 
agree that those are the three key ingredients, and if you do 
it right, as frustrating as it is to get turned down on a loan, 
you just go find one another way?
    Ms. SMITH. Sir, I would have to agree with you 100 percent 
because, like I spoke earlier, I was turned down on a loan but 
I believed in my company and I believed in what I could do. And 
I knew I had a sound business plan, so I just invested in 
myself. And sometimes you have to take that risk. Fortunate for 
me, I had enough resources to start my business. Right now it 
is online, but I plan to actually have a storefront at some 
point.
    Mr. COLLINS. So if somebody had said to you, ``I will give 
you the money. I am not going to loan it to you. I will be an 
equity investor but I get 40 percent of your company, 40,'' 
would you have taken their money?
    Ms. SMITH. I would probably try to negotiate at first. But 
I would consider it simply because I want to make my company 
successful. But ultimately, I would have to negotiate, sir.
    Mr. COLLINS. What about you, Mr. Franklin? As a franchise 
owner, I am assuming you own it.
    Mr. FRANKLIN. Yes, sir. Sole proprietor. As far as putting 
it all together, I did. I liquidated all of my personal assets, 
which was pretty much everything I had. I did not have a 
mortgage or anything. Luckily, the Navy did not give me the 
time to really settle down in any one place. So I took that and 
I leveraged that position where I was at when I transitioned to 
say, okay, I am willing to risk it all, and I did that. And 
actually, I got a SBA loan to finance part of the startup. And 
actually, the first bank I went to I was denied a loan, too. It 
was their own internal happenings that they did that. But then 
I was approved from a few other banks. It is one of those 
things that not only did I invest all of my personal assets, I 
then went and put myself in a lot of debt and that is something 
that I think is a real consideration that someone with a 
family, I would not want to do that.
    Mr. COLLINS. I think veterans make perfect entrepreneurs 
coming from where they do and whether it is the SBA or other 
resources, it starts with a business plan that is real and it 
is realistic and so forth. And then access to capital. But the 
killer many times I have found is the willingness or 
unwillingness to give up equity because you say I am going to 
do all the work and somebody else is going to take 30 percent, 
40 percent. Welcome to the real world. And that is part of my 
message to anyone starting a new business is he who has the 
gold makes the rule.
    Thank you, Mr. Chairman. I yield back.
    Chairman GRAVES. Ms. Hahn?
    Ms. HAHN. Thank you, Mr. Chairman. Thank you for holding 
this hearing. It is really important. And I would also like to 
take a moment to thank all of you for being here. Each of you 
have served our country and now you have found your own way to 
break into entrepreneurship, showing again that our brave men 
and women in our Armed Forces are clearly the best of the best, 
and we appreciate it.
    I hope what we are hearing today is going to help us as we 
move forward trying to connect our veterans with jobs and with 
business opportunities. This unemployment rate of our veterans 
since 9/11 is really disturbing that it is so much higher than 
the national unemployment rate. Women veterans have the highest 
unemployment rate in this country. And then there are the 
homeless veterans, which is so disturbing to me. In Los Angeles 
County where my district is, we have over 6,000 homeless 
veterans, the largest concentration of homeless veterans in 
this country. So this is a real problem, and we all say we want 
to support our veterans and support our troops, but the fact of 
the matter is when you come home, it looks like there is very 
little support in really having you transition to the civilian 
life.
    I wanted to follow up a little bit, Mr. Malkemus, with the 
issue of PTSD. And as one of our colleagues said earlier, maybe 
we are labeling it wrong as a disorder and maybe if we change 
the name of it, it might be different. It is something that 
every veteran suffers. But clearly there is a stigma, as you 
said. Even when you look at the facts of the Hire Our Heroes 
Program through the Chamber of Commerce, we have got pledges to 
hire like 409,000 veterans, but it is not matching up with the 
actual veterans hired. So is it true that some business owners 
are admitting publicly or privately that they are less likely 
to hire a veteran because of the stigma of PTSD? And maybe you 
could speak a little bit more about this stigma because it does 
exist, and maybe what we can do to address this issue without 
downplaying the seriousness of this issue for our veterans?
    Mr. MALKEMUS. Sure, Congresswoman.
    I would say privately I do not think most business leaders 
at this point are anything but supportive of veterans. But 
clearly, if you are evaluating two candidates and one has 
something that could be a potential risk that they do not know 
how to deal with professionally, which right there is already a 
lack of understanding that they would think that they may need 
to deal with something as opposed to these are some very 
talented people that could come in and probably restructure 
whole departments or divisions of your operation based off of 
their skillset and what they have already done for us in the 
country.
    I will tell you just a good caveat for Hiring Our Heroes 
and their job fairs which I think in terms of an organization 
for finding meaningful employment, they have done more than any 
other that I have come across. And I think they have probably 
brought the business community more to the veteran table than 
anyone else. But I will say they have their work cut out for 
them, and a lot of that is on the business community side.
    I was a graduate of the University of Pennsylvania. When 
you graduated from that university, you had managing directors, 
top level executives coming to cherry-pick off the best and 
brightest talented out of that university. They were going 
straight to Wall Street in banking jobs. You go to even a top 
level--you could have colonels at that job fair. You will not 
see those type of recruiters at that job fair. So clearly those 
companies are sending who they think they are going to find 
there. I mean, that right there tells you already how they are 
valuing the veteran talent that is coming out.
    Ms. HAHN. Thank you.
    Before my time is up, Ms. Smith, I really appreciated your 
testimony. It is very inspiring. You talked about how only four 
percent of veteran-owned small businesses are owned by women, 
and as a female veteran and mother, you struggled for a while 
to find a job that both supported your family and matched your 
skillset. I am happy, and it was great to hear about the 
Business and Professional Women's Foundation and your mentor, 
Sandy Smith. What do you think we can do to improve services 
that are available so that we can connect with women veterans 
sooner before they run up against so many obstacles and so many 
frustrations? What can we do better?
    Ms. SMITH. Well, ma'am, I am glad you asked that question 
because normally when we leave the military we are offered the 
Transition Assistance Program, and that program it is supposed 
to gear you for the civilian life. However, it did not help as 
much as it says it will. I think if we put programs like 
Business Professional Women's Foundation in touch with veterans 
or, excuse me, soon-to-be veterans as they transition out of 
the military on bases and actually let them be aware, promote 
them more, get their name out so that people will know that 
there is a program that is 100 percent free for women veterans 
who are there to help you, and I really love that program. I 
love what they have done for me. And they really changed my 
life. So I believe in that program because it is has helped me 
tremendously. I just think getting the name out and making 
veterans or military females aware this type of program exists 
and there are people out there that really care about you.
    Ms. HAHN. Thank you. That is an interesting concept to put 
these resources on the bases before you transition, and a lot 
of you are shaking your head on that. I know I am out of time, 
Mr. Chairman. Thank you. I yield back.
    Chairman GRAVES. Mr. Rice?
    Mr. RICE. Thank each of you for your service.
    Ms. Smith, a special thanks to you since you are from my 
home state of South Carolina.
    I just have one question I want each one of you to answer, 
and maybe you cannot think of it right now, but if you had one 
thing, if each one of you could be Congress for a day and there 
was one thing that we could do to make it better for veterans, 
what would it be?
    I will start with you, Mr. Leghorn.
    Mr. LEGHORN. Wow, it is kind of hard to be put on the spot. 
If I was a congressperson what I would do is I would definitely 
try to bring some of the programs that Ms. Smith talked about 
onto the DoD's Transition Assistance Program. That is just off 
the top of my head what I would do. There needs to be a little 
more private sector involvement in that program.
    Mr. RICE. Thank you, sir.
    Mr. Malkemus?
    Mr. MALKEMUS. Congressman, thank you. I would say change 
the conversation. Right now about veterans you hear a lot about 
certain aspects of what they have dealt with, and I would say 
why does it matter? Why do we care about veterans coming home 
and transitioning? And I would say the truth of the matter from 
my perspective is it is talent. This country needs talented 
people to start leading itself out of economic stagnation or 
whatever else you want to say. Whatever problems we have, these 
are people that have been out there solving problems in foreign 
countries and doing incredible things. Americans need to 
understand that from a different perspective. So I would say 
change the conversation.
    Mr. RICE. Thank you, sir.
    Ms. Smith?
    Ms. SMITH. Sir, what I would do is really provide funding 
to the veterans in the programs that actually benefit the 
veterans, because there are very few programs that truly 
benefit the veteran and are willing to help them 100 percent.
    Mr. RICE. Can you help us identify those?
    Ms. SMITH. Well, one, of course, is DPW. I can attest to 
that. Hire Our Heroes. I also know about them as well, and they 
help veterans as well. So yes, really providing the funding and 
actually getting the funding in place and also getting the 
veterans connected with these programs. That would be the 
thing.
    Mr. RICE. I would like your opinion on some that do not 
help as much.
    Ms. SMITH. Yes, sir.
    Mr. RICE. You do not have to do it right now.
    Ms. SMITH. Yes, sir.
    Mr. RICE. Maybe we could follow up after.
    Ms. SMITH. Yes, sir. I would love to do that.
    Mr. RICE. Thank you.
    Mr. Franklin?
    Mr. FRANKLIN. I think to follow up on what Ms. Smith was 
saying and maybe to help answer your last question was I was 
thinking how can we help the veteran, connect the veteran with 
opportunities. And I think the VA does a very good job of 
helping, of offering services to veterans, but if we truly want 
to help us make a decision on what we want to do with our life 
rather than say here is an example. The GI Bill is great. I do 
not want anything to happen to it. But say, ``Go to school. 
Here is your only option.'' I wanted to open a business. I was 
actually in grad school. I was funding it myself. I gave up 
grad school and decided to use my money to open my business. 
There was no support from the VA for any type of financial 
incentives to open a business. Maybe have the organization look 
into doing something like that.
    Mr. RICE. In lieu of?
    Mr. MALKEMUS. I understand that there is a budget. As a 
business owner, I understand a budget. You just cannot create 
capital.
    Mr. RICE. I almost got the impression you were saying in 
lieu of tuition assistance.
    Mr. MALKEMUS. And again, I said I do not want to take away 
from the GI Bill, but maybe create a separate program. We 
already have a framework of successful programs, like the VA 
home loan or the GI bill, but what about veterans that want to 
do something else with their life than own a home or go to 
school, veterans that want to open a business? I think maybe 
trying to look into something like that to support the 
veterans. That would be one of the things I would want to do.
    Mr. RICE. Ms. Smith, I heard you say that the Transitional 
Program was not that helpful to you. And you are not the first 
person I have heard say that. What can we do to improve that? 
What can we make it better? Because I have never heard anybody 
say positive things about it. All I have ever heard people 
mention is negative. Maybe that is only because we only hear 
the negative, but what can we do to make that transitional 
program useful?
    Ms. SMITH. Sir, honestly, my experience with the Transition 
Program is just kind of like you get pamphlets saying a brief 
overview of what to expect in the civilian world. I think that 
it is not the people that are actually in the civilian sector 
who are running these programs or who benefit. That is why I 
said maybe putting programs like BPW or even some civilian 
companies that, okay, this is what I am looking for, this is 
the type of skillsets that I would like you to have, so the 
transition would be smoother for veterans leaving the military. 
They will say, ``Oh, yes. I have this skillset.'' Or ``Yes, I 
have this knowledge.'' And it would make it, I think, a lot 
easier.
    Mr. RICE. Thank you, ma'am. My time is up.
    Chairman GRAVES. Ms. Chu?
    Ms. CHU. Yes. Mr. Leghorn, your testimony makes it very 
clear that The American Legion and other veteran service 
organizations are strongly supportive of the Small Business 
Administration's efforts to assist veterans in realizing their 
dreams of entrepreneurship. And in fact, I noted with interest 
your testimony with that said that The American Legion is 
disappointed in the recommendations of the House Committee on 
Small Business that proposes federal budget cuts that would 
eliminate the Veteran Business Outreach Center in the most 
recent publication of Views and Estimates. I would like to make 
it clear that I am not supportive of these cuts, and in fact, I 
agree that the Veterans Business Outreach Centers fill a 
critical void that cannot be filled or duplicated by other 
programs, such as mentoring and veteran-specific assistance.
    Can you tell us how the services provided by the centers 
differ from private sector initiatives?
    Mr. LEGHORN. Thank you for your question, ma'am.
    The VBOCs, I have only visited a few of them, but from the 
few that I have visited, they are run by people that have been 
in the military. They understand the experiences that veterans 
have and they offer programs and services that cater to a 
certain set of experiences. And a lot of times, because they 
have a smaller caseload--well, not a smaller caseload but the 
one-on-one type really ``high touch'' services are a little bit 
better in terms of they really become friends with the people 
that they counsel, and a lot of times I know some of these 
VBOCs are open or are accessible to the veterans on weekends 
and even on the holidays and even at nights because, again, it 
is kind of like a military courtesy. And that is, yeah.
    Ms. CHU. Okay. Last week, the Small Business Committee held 
a hearing entitled ``SBA Initiatives: Necessary or Redundant 
Spending,'' and I asked a lot of questions about the Boots to 
Business Program. Could you tell us why this program is unique 
and not redundant, because I understand that that is your view?
    Mr. LEGHORN. We feel that it is a really good curriculum 
because it is modular. You could take modules and by changing 
the guest speakers or the panels, you could address different 
segments or you could apply it to different segments of the 
veteran population. We did it successfully for female veterans 
and spouses. And this curriculum is not really redundant 
because it is not on par with the mini MBA courses that are 
happening at the universities. It is like a really--it is a 
crash course. It is a two-day crash course that pretty much 
tells somebody that maybe did not know anything about 
entrepreneurship and lets them know what is involved and really 
sits them down and makes sure that they know what they are 
getting into. We do not see too many programs and services like 
that. A lot of these programs go really deep into the weeds, 
which is really good, but when we are dealing with 
transitioning veterans or transitioning servicemembers and 
veterans that do not even have a business plan, a lot of them 
have not even registered their business, that is who this 
program is geared towards.
    Ms. CHU. In fact, you talked about the unique set of 
challenges that veterans have because of their experience of 
being in the military. Could you talk about that a little bit, 
such as the lack of accumulation of assets and things like 
that?
    Mr. LEGHORN. Yes. Most of our veterans coming out of 
military service do not have collateral for loans, and in fact, 
that is the reason why the Patriot Express was so underutilized 
because we lack collateral. If we had collateral, we would be 
able to use a regular loan product and would not have to rely 
on the PXL. So that, of course, is one of our challenges. And 
of course, for those that do have collateral or a really good 
business plan and were able to get a loan, a lot of times they 
find themselves paying off their loan, and that is principal 
and interest, with the money that they had just taken out from 
the bank because, again, a lot of my small businesses that I 
counsel do not make money in the first months, maybe year.
    Ms. CHU. Thank you. I yield back.
    Chairman GRAVES. Ms. Meng?
    Oh, she is not here.
    Mr. Schrader?
    Mr. SCHRADER. Thank you, Mr. Chairman.
    Just a general question. Mr. Franklin indicated some 
familiarity already but were all of you aware of the Small 
Business Administration when you got out of the service?
    Okay. Nodding heads. Good. That is good.
    So then maybe start with Mr. Franklin. You had some 
experience in trying to get a loan and you say you actually 
were able to get a loan or part of a loan. Could you describe 
your experience and what particular challenges you came up 
against?
    Mr. FRANKLIN. Yes, sir. The challenges I faced I think were 
more internal. Every bank operates differently, even under the 
terms of the SBA loan. And all the banks that I went to were 
preferred SBA lenders, which means that the bank internally 
does all the paperwork and in the end they make the final 
decision and then they notify the SBA. And I think that is 
something that until you actually go get an SBA loan you do not 
realize that that is part of the process. So I was really 
adamant educating myself and I was going to go get a Patriot 
Express loan. And I found out that it really did not offer any 
benefit that a regular SBA loan could give me. And so going 
from there I was, like, okay, that is fair. But getting an SBA 
loan, it was more the banks themselves, and that is what I 
started talking about is the way every bank did their math 
differently. And two of the banks I was approved from wanted me 
to liquidate my IRA which I thought was a little too much. And 
so essentially, I actually went back to both banks and said, 
``So you are asking me to give up every cent that I have, 
because I am already putting else I have, and then liquidate my 
IRA. What happens when I run out of capital, which you are 
going to loan me? I now have no money to come back and say can 
you loan me some more. You are not going to want to do that.'' 
And they said, ``Oh, really?'' I was like, ``Yeah, that is how 
math works.''
    That was the biggest struggle was the banks, the way they 
did their math was very protective. So it was not necessarily a 
problem with the SBA, it was the banks themselves.
    Mr. SCHRADER. Okay.
    Ms. Smith, any comments? Did you try for a loan?
    Ms. SMITH. Yes, sir. I did. With my experience it was, like 
he said, the collateral and I did try for the Patriot Express 
Loan because I thought it was a small amount to ask for. And as 
I said, what I was doing, I also have children, so I was really 
willing to give up a lot just to get my business off the 
ground. So it just did not turn out, but fortunately, I was 
able to have enough funding from myself to start my company.
    Mr. SCHRADER. Good.
    Mr. Malkemus?
    Mr. MALKEMUS. Sir, not for this company but I had the same 
experiences as both Ms. Smith and Mr. Franklin. The Patriot 
Express Loan was one of those things that you thought you had 
as a benefit being a veteran, and you walked into any bank and 
they basically explained to you that it was just a regular 
small business loan, 30 percent collateral required.
    Mr. SCHRADER. That is sad. That is sad, because that was 
not our intent obviously at the end of the day.
    How about the Small Business Centers? Do you guys have any 
experience with them? Do you get any education or frustration 
with them?
    Mr. Malkemus?
    Mr. MALKEMUS. I can comment. I have had exposure to a 
variety of the SBA resources for almost 15 years when I 
initially started trying to do my first startup company. And 
back when I was doing that, they were the only people on the 
block that you could go to for resources and networks and 
access to anything, any information on entrepreneurship. And I 
went to Penn. They had a lot of wealth there for an 
entrepreneur. Today, there is just so much. I mean, especially 
in the last eight years, there has been an explosion in the 
knowledge base from the startup community on lessons learned on 
how to launch startups faster, cheaper, and more effectively 
than ever before. And I would say a lot of that information 
that is out there, a lot of those methodologies are still kind 
of only found in certain pockets and communities that have 
that. But there are veterans in those pockets and communities 
and they are trying to tap into the veteran community.
    Mr. SCHRADER. Do you think most of your colleagues, 
veterans coming out know anything about the SBA and small 
Business Development Centers?
    Mr. MALKEMUS. I would say they have a better understanding 
of the SBA than they do the wealth and knowledge within the 
startup communities.
    Mr. SCHRADER. Okay.
    Mr. MALKEMUS. And that is a bit of a disconnect because a 
lot of those lessons learned would help them.
    Mr. SCHRADER. Yeah.
    Ms. Smith, do you agree?
    Ms. SMITH. Yes, sir. I do.
    Mr. SCHRADER. All right. Very good.
    Well, you all are a lot smarter than I was. I was not a 
veteran, so I honor you for your service, but I was an 
entrepreneur and I was a lot more ignorant than you all are. So 
you are coming out a lot further ahead than a lot of young 
people in my day, and hopefully we will fine tune these 
programs and partner with the private sector. Like you said, 
there are a plethora of new programs out there where people can 
put people together in a much, much more intelligent way. The 
important thing is to get the word out, and I again thank you 
for your service.
    I yield back.
    Chairman GRAVES. Ms. Herrera Beutler?
    Mr. Payne?
    Mr. PAYNE. Thank you, Mr. Chairman. I also want to thank 
the ranking member. I would also like to thank all of you for 
your service and commitment to this nation and your service to 
this country and the military.
    Let us see. Mr. Leghorn, in your testimony you mentioned 
that you believe small businesses are a community of 
individuals. You also mentioned that extended and multiple 
deployments by Coast Guard and Reserve members are destructive 
to a business. With this in mind, what are your thoughts on a 
program that creates business-to-business opportunities for 
civilian small business owners to link up with veteran 
entrepreneurs?
    Mr. LEGHORN. We would definitely be in favor of more 
private sector involvement in veteran hiring space.
    Mr. PAYNE. Sure. We believe that civilian owners could 
provide the stability while the veterans could bring a unique 
perspective and expertise. Can you speak on the pros and cons a 
bit more in reference to that?
    Mr. LEGHORN. Can you repeat the question?
    Mr. PAYNE. What the idea is is to create a linkature, as we 
call it, business-to-business opportunities, for civilian small 
business owners to link with veteran entrepreneurs. And when 
people have multiple deployments, a partnership of such would 
allow continuity for that business not to be disrupted by the 
member returning to a deployment.
    Mr. LEGHORN. So are you saying that this program would 
somehow let--when the veteran deploys he would sub out his jobs 
or his----
    Mr. PAYNE. That could be a way to look at it. You know, 
this is a concept, an idea, and to that point that could be 
something that potentially could evolve into as we look at it. 
But I mean, you know, part of the issue that was raised was 
that when a member gets deployed multiple times it disrupts 
their business, and then they have to come back and try to put 
it together and move forward. So if there was a civilian 
partnership in that business, then the continuity and the 
consistency would remain during this military person's time of 
deployment if it is multiple occasions. So do you see where 
that concept could evolve into something that would help 
military members?
    Mr. LEGHORN. Yes, sir. I do. With the up tempo of 
deployments, I think this is something that we could definitely 
work with your office on.
    Mr. PAYNE. Okay.
    Thank you. I yield back.
    Chairman GRAVES. I want to thank all of you for 
participating today. As most everybody has said, thank you for 
your service very much. Your testimony today is going to help 
us better understand the importance of the training programs 
supporting our nation's veterans as they pursue business 
opportunities that are out there, and it is encouraging to hear 
about all the private sector initiatives that are truly helping 
our nation's heroes. And I do believe it is important to 
consider our federal programs in the context of what is 
happening in the private sector. So instead of duplicating the 
programs, we can focus on filling those gaps.
    It has been an honor for me and the Committee members to 
have you here today. Again, we appreciate it, and with that, I 
would ask unanimous consent that all members have five 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, that is so ordered.
    And with that, the hearing is adjourned.
    [Whereupon, at 2:14 p.m., the Committee was adjourned.]


                            A P P E N D I X


                       TESTIMONY OF WADE FRANKLIN


            Owner, The UPS Store of Clarendon, Arlington, VA


                               Before the


       U.S. HOUSE OF REPRESENTATIVES COMMITTEE ON SMALL BUSINESS


  ``Military to Entrepreneurship: Private Sector Initiatives to Help 
                Veterans Pursue Business Opportunities''


                              May 7, 2014


    Chairman Graves, Ranking Member Velazquez, and members of 
the Committee, thank you for inviting me to testify on ways 
that the private sector can assist veterans in pursuing 
business ownership and other opportunities. My name is Wade 
Franklin, and I am the owner of a franchise of The UPS Store in 
Arlington, Virginia and a veteran of the United States Navy. I 
appear before you today on behalf of the International 
Franchise Association. I operate my store seven days a week, 
and I currently have three employees.

    Franchising is a large community of diverse business 
concepts that all grow and operate using the franchise business 
model. In this model, entrepreneurs open their own businesses 
and purchase the rights to operate their business using the 
trademarks, products, and business strategies of a proven 
franchise system. Franchise businesses are very common in the 
restaurant and hospitality space, but franchising is also 
popular in business services, personal services, retail, and 
automotive.

    With nearly one million veterans transitioning out of 
military service over the next five years, it is more important 
than ever that we help veterans re-integrate into the civilian 
economy. Our service men and women are looking forward to 
rejoining their families, going back to school, or starting 
their own businesses. It is both an economic necessity and a 
moral obligation for our country to facilitate this transition.

    From Honor to Owner

    I left the Navy in February of 2012, and was looking for 
employment opportunities during the previous fall. The most 
prevalent prospects were corporate management jobs that many 
former junior officers are draw to. I saw many of my friends 
take jobs in various corporations, but I did not necessarily 
want to go down that path. However, I also was not sure where 
else to look. The idea of working for myself seemed appealing, 
but I did not know how to get the ball rolling on starting a 
business, and I did not have an original idea or product to 
form a business around. While searching for veteran 
opportunities, I came across VetFran, the International 
Franchise Association's veterans transition program, and saw 
the financial incentives that hundreds of franchise systems 
offered to veterans who opened franchise businesses. One of the 
franchises that most appealed to me was The UPS Store, who also 
offered to waive their $30,000 franchise fee for the first ten 
veterans approved as franchise owners in 2012. In addition to 
their generous financial incentive for veteran franchise 
owners, The UPS Store also partners with the USO, IFA, and 
Georgetown University to offer the Small Business and Franchise 
Management program to educate franchise executives and owners 
on franchising. Needless to say, a brand with an excellent 
reputation that was so actively recruiting veterans as 
franchise owners was obviously an appealing choice. I applied 
to become a franchise owner of a The UPS Store in January 2012 
and was approved for a franchise the next month. I was one of 
the ten veterans that had their initial franchise fee waived.

    There are obvious challenges to jumping straight into 
running a business without prior business experience, which few 
average veterans have. I went to the Naval Academy out of high 
school and spent seven years in the Navy after. My education 
and employment in the Navy was not focused on being a future 
business owner, and there should be no expectation that the 
military prepare future veterans to own a business. Opening a 
business is a unique challenge, and even more so for 
transitioning veterans. The military does a terrific job of 
supporting us while serving, but the enormous risk of opening a 
business in civilian life while leaving behind many of the 
resources previously provided by the military can be daunting, 
especially when there is such a large financial risk involved. 
To that end, private sector programs such as the International 
Franchise Association's VetFran program can be extremely 
beneficial in filling the support gap that often exists for 
veterans once they exit the military. For me, opening a 
business was not just a choice of which brand or business line 
appealed most to me. The most important part of the decision 
was assessing the financial resources available to me, and 
allocating those resources as best I could. That was, and 
remains, the most difficult obstacle for me to overcome in 
becoming a business owner.

    Veterans and Franchising - A Good Fit

    Franchise systems have complex yet effective operations 
guidelines, and the franchise owners that can best execute the 
system are the owners who can realize the most success in their 
businesses. Many of the qualities that make successful 
franchise business owners are found in our nation's service men 
and women, while the training techniques used in the military 
provide a significant skill set that is especially valuable in 
franchise owners. The attention to detail, situational 
awareness, and communications skills I learned in the Navy also 
translate very well to business ownership, and I don't think I 
could have learned those skills better in any other 
environment. Above all else, veterans possess the leadership 
skills necessary to run a successful small business, and to 
persevere through tough times to keep that business running. 
For these obvious reasons, franchise companies actively recruit 
veterans as franchisees, knowing that veteran-owned franchises 
tend to out-perform other locations.

    VetFran

    Recognizing that franchising is a great fit for 
entrepreneurial veterans, the International Franchise 
Association launched the Veterans Franchising Initiative, or 
VetFran, in 1991 in an effort led by Don Dwyer, a United States 
Air Force veteran and founder of The Dwyer Group, a family of 
franchise brands. The initiative was launched to support 
veterans returning from the Gulf War in their transition to the 
civilian economy. VetFran is an industry-wide initiative to 
encourage franchise companies to both hire veterans as team 
members and recruit them as franchise owners. As part of 
VetFran, franchisors offer special incentives to qualified 
veterans who enter into franchise agreements. Incentives range 
from thousands of dollars in initial inventory, special 
financing on equipment, or a discount on the initial franchise 
fee, like what The UPS Store offered me when I opened my 
franchise. Some franchise systems even offer one free franchise 
to a qualified veteran franchisee each year.

    VetFran members are also able to share best practices 
concerning the veterans having initiatives within their own 
companies, and the IFA's online VetFran portal helps 
prospective veteran franchisees connect with experienced store 
owners who are also military veterans. Just as veteran business 
owners are more likely to hire fellow veterans, dozens have 
also volunteered their time to guide prospective owners through 
the complex application process as a part of VetFran's 
mentorship program.

    A survey of VetFran members reveals that the program has 
achieved impressive results. In 2011, IFA launched Operation 
Enduring Opportunity, a campaign to hire, and recruit as 
business owners, 80,000 veterans, wounded warriors and their 
spouses through 2014. In a report on Veterans Day in 2013, a 
survey revealed that the franchise industry has nearly doubled 
its hiring target. Since 2011, over 151,000 veterans have 
started careers in franchising. However, we are most proud of 
the fact that over 5,000 veterans have been recruited as 
franchise owners across hundreds of franchise systems. 
Unsurprisingly, the survey went further to indicate that 
veteran-owned franchises were more successful than other 
franchises, far out-pacing non-veteran-owned units in both 
sales and number of jobs created.

    I like to think I'm smart and resourceful enough to have 
navigated my way through opening a business without the help of 
VetFran, but there's no doubt that the program was a 
significant catalyst in starting my business. All franchise 
systems are different, each had different benefits and 
disadvantages and the tools and resources provided by VetFran 
gave me the ability to compare opportunities and decide which 
one was best for me. There are many places where veterans can 
find information on a variety of different topics, especially 
with the increased public awareness and attention drawn to the 
issue of veteran unemployment. However, there infrequently are 
these resources comprehensive enough to bring a prospective 
business owner from the beginning of the process all the way 
through to the end.*

    Veterans Entrepreneurs Act of 2013

    H.R. 3725, the Veterans Entrepreneurs Act of 2013, was 
introduced last year to assist veterans in opening franchise 
small businesses. It would provide a tax credit to qualified 
veteran franchise owners, worth up to 25 percent of the initial 
franchise fee, capped at $400,000. In addition to the real 
estate, equipment and inventory necessary to open a franchise, 
the initial franchise fee is a significant investment, and 
remains a barrier to opening a franchise. I would not have been 
approved to open a The UPS Store without the franchise fee 
being waived. I did not have the personal financial resources 
to either produce an extra $30,000 or borrow an extra $30,000 
from a financial institution. When coupled with the incentives 
offered by franchise systems through the VetFran program, this 
tax credit will go a long way towards helping veterans open new 
businesses and create opportunities for both themselves and 
others. A similar bill, called the Help Veterans Own Franchises 
Act, also exists in the Senate. The franchise community already 
has a demonstrated record of success in implementing veterans 
programs, and we believe that this legislation will serve to 
expand on that success while providing veteran entrepreneurs 
with a significant financial incentive to realize the American 
Dream of owning and operating their own small business. I 
believe that this type of effort, one that can marshal the 
information and expertise from hundreds of businesses across 
many industries, is a model of a successful toolkit to help 
provide business opportunities for veterans. I thank you for 
the opportunity to testify today, and I look forward to 
answering any questions you may have.

                               Testimony


                                   of


                               Dawn Smith


                   Founder and CEO, Mystic Reme Teas


                             Greenville, SC


                               before the


                      Committee on Small Business


                     U.S. House of Representatives


                              May 7, 2014


    Mr. Chair, Madam Ranking Member, and members of the 
Committee, thank you for the opportunity to testify regarding 
the importance of supporting women veterans through mentorship 
to realize their career and entrepreneurship goals. My name is 
Dawn Smith. I am the Founder and CEO of Mystic Reme Teas in 
Greenville, South Carolina, and testifying today on behalf of 
Business and Professional Women's Foundation.

    As a woman veteran who recently started my own business, I 
hope my experiences can be helpful to the committee as you 
examine which government and nonprofit programs can best assist 
and meet the unique needs of women veterans as they transition 
back to civilian life. The importance of recognizing and 
sustaining women veteran focused career development programs or 
subsets that specifically address women needs is supported by 
my personal experience and that of many of my peers, as well as 
validated by research that demonstrates the difference in our 
needs relative to male veterans and all men.

    Women-owned firms account for 30% (7.8 million) of all non-
farms privately held U.S. businesses with potential to grow 
almost twice as fast as male-owned firms. Although there is so 
much potential for entrepreneurship, women veterans are 
significantly underrepresented among business owners. Veteran 
owned businesses account for approximately 14% (2.4 million) of 
U.S. small businesses, approximately 4% of which are owned by 
women. Obviously women veteran business ownership is not 
keeping pace with the overall growth of women's business 
ownership, which is growing faster than men's.

    Proud to serve my country

    I am very proud of my military service. I served in the Air 
Force for eight years and was deployed six times to Iraq, 
Afghanistan, Turkey and Germany. My expertise in the military 
was logistics, which means I was responsible for making sure 
that the movement of both troops and cargo got to the right 
place and were on time. In both Iraq and Afghanistan I was a 
Terminal Operations Manager responsible for processing and 
loading more than 7,000 passengers and directing the shipment 
of hundreds of thousands of tons of cargo. My work was 
consistently recognized for meeting excellent delivery and 
departure standards. I also earned by MBA while in the 
military.

    Road Blocks in the military to civilian career transition

    Because of my advanced logistics experience and MBA, I 
really didn't think I would have a problem finding a rewarding 
career when I left the service. But when I returned home to 
North Carolina to raise my children on my own, I was not even 
considered for management jobs; instead, I was offered 
positions like a warehouse worker, which I did not think 
utilized my skills, education and experience. For a couple of 
years I took various jobs that did not fit my background 
including working as a high school teacher and secretary since 
I needed to feed my children. These jobs offered neither the 
career I was seeking nor the salary commensurate with my 
experience.

    While working, I continued to look for a more rewarding and 
financially secure position, I returned to school to begin a 
master's program in accounting. But looking for a job while 
managing the demands of work, school and motherhood, I became 
discouraged. I knew I needed some help, so I turned to the 
internet to see what career resources might be available for a 
woman veteran. I was very fortunate to find Business and 
Professional Women's Foundation, a non-profit organization that 
runs a free career mentoring program for women veterans. What 
attracted me to their program, Joining Forces Mentoring Plus, 
was that working women volunteers mentor women veterans, like 
me, to help them navigate the path to successful civilian 
careers, and if they desire, pursue entrepreneurial 
opportunities. Participants can access a free ``high-tech/high-
touch'' internet community that includes experienced women 
mentors as coaches, navigators and supporters. Women veterans 
can be from all branches, eras, ranks and levels. And Joining 
Forces Mentoring Plus meets the woman veteran where she is--
getting prepared to lave the service, just leaving the service, 
out a while but hasn't found the right job, unemployed or 
under-employed, has been working for some time but wants to 
take that next step to move up the career ladder or even start 
her own business.

    Mentorship: the Missing Link

    I immediately signed up and was assigned a wonderfully 
accomplished and enthusiastic mentor, Sandy Smith. Sandy worked 
with me one-on-one and was persistent in offering advice and 
support on everything from interviewing skills to resume 
development. She pushed me, checking on how many resumes I had 
sent out each day. She also encouraged me and helped me to 
develop a new attitude and mindset that gave me the courage to 
apply for positions that previously I would not have thought 
possible. As result, in 2012, I was hired as an auditor by the 
U.S. Defense Contract Audit Agency, which required me to move 
to Greenville, South Carolina. I am happy to report that my 
salary at this job was twice what I had been making previously. 
After landing the job, Sandy, my mentor, did not leave me on my 
own but coached me on office etiquette and protocols necessary 
to successfully navigate the civilian sector workplace.

    I loved my job and felt that my career was on very solid 
ground, but felt like something was missing because I had 
always dreamed of owning my own business. With Sandy's 
encouragement and sustained mentoring last year, I started an 
online store that sells my own brand of tea. I am very excited 
that Mystic Reme Teas is currently in the final selection round 
to appear on the ABC show Shark Tank. If I am chosen, I will be 
seeking funding to open my own tea bar.

    I truly believe that none of this would have happened 
without the personal mentoring and wide array of high tech-high 
touch resources offered by BPW Foundation. Through my exposure 
to the organization and as a result of working with them, I 
have learned that BPW Foundation has always been concerned with 
the welfare of working women. From its early history BPW 
Foundation has worked to advance untapped populations in every 
facet of the workplace, including women in the green economy, 
young careerists, women with chronic illness, innovative 
employers, women business owners and women who have served our 
country. Having studied and elevated issues important to 
working women--particularly women in non-traditional 
occupations--for nearly a century, BPW is uniquely qualified to 
respond to the domestic and workplace needs of women veterans.

    I also feel this program was so successful for me because 
it was designed to meet the needs of women veterans. The 
success of JFMP is directly related to its being designed by 
and for women. It is critical that women veterans be able to 
access targeted support that specifically addresses our needs. 
Generic veteran-based employment and career development 
programs too often miss the unique elements and needs that 
matter most to women veterans.

    BPW Foundation's interest in women veterans began almost 
ten years ago, when they wondered how the growing number of 
women veterans was handling the transition back into the 
civilian workforce. What they discovered was that no one really 
knew; and worse yet, no one was asking. So BPW Foundation 
conducted a national survey of 1,600 women veterans--the first 
of its kind--and found that we have many unique needs. That, in 
turn, led to BPW Foundation's Joining Forces for Women Veterans 
2010 National Summit and the resulting report that found career 
mentoring to be a key factor missing from our post-military 
transition into civilian careers.

    My experiences are a great example of the amazing results 
mentoring can have on someone's career--particularly as they 
transition out of the military. And we know that mentoring 
works. Study after study has shown the benefits of mentoring 
including more career satisfaction, higher earnings and better 
productivity. And not just the mentee benefits from a mentoring 
program. Mentors also benefit with learning new skills and ways 
of looking at problems. And not surprisingly, since both the 
mentee and mentor benefit, so do businesses that support 
mentoring programs. Not only do many top companies have 
mentoring programs but they benefit from more satisfied 
employees and show an extraordinary Return on Investment.

    Addressing the Unique Challenges Women Veterans Face

    I can attest to the fact that women leaving the service 
often face unique challenges and have unique needs including 
single motherhood or care giving for family members, including 
wounded warriors. Also women veterans often do not identify as 
veterans and don't know they can access a wide array of 
benefits. We are frequently looked at differently from our 
fellow male veterans. Women who served in war zones are not 
afforded the same level of prestige as their male counterparts.

    This unacceptable situation resulted in BPW Foundation's 
call to action. With input from their Women Joining Forces 
Advisory Council, a career mentoring model was developed to 
respond specifically to women veteran needs for awareness and 
guidance about available support and employment resources; and 
one that recognizes multiple roles impacting women veterans and 
their access to jobs. It is based on a workforce transition 
model--Working Women Helping Women Work--which brings 
experience, expertise, guidance and encouragement. Joining 
Forces Mentoring Plus was launched in 2012, and now includes 
women veterans, military spouses, female caregivers of wounded 
warriors, and women who have lost a loved one serving in the 
military.

    It is important to me that a core principle of BPW 
Foundation is to rely on evidence-based research to improve and 
upgrade the program. Programs that serve women veterans must 
respond to their unique needs, so BPW Foundation regularly 
surveys and speaks with program participants. They apply those 
suggestions and input to continually improve the design and 
development of the program.

    For example, in 2013 they added a new ``member'' category, 
to allow participants to achieve a certain comfort level with 
the program before having to connect with a mentor (while still 
having full access to JFMP resources). This addition has met 
with much success, as many members choose to become mentees 
after a short amount of time.

    BPW Foundation also learned that many women who have served 
our country are overwhelmed by the amount of information and 
choices out there, and are not comfortable trying a new 
program. Many rely on personal recommendations they receive via 
social media and networking. Thanks to Citi (a JFMP Leadership 
partner), BPW Foundation's JFMP program was selected as a 
participant in ``Citi Skills Day''--a pro-bono opportunity to 
have a team of their in-house experts give advice to 
nonprofits. As a result of this training, a social media/
internet marketing professional, a woman veteran business 
owner, was hired in the first quarter of 2014, to help better 
communicate with women veterans that JFMP serves and wants to 
serve. This move has resulted in access to an even broader 
audience of women veterans and military spouses.

    Finally, as demonstrated by my testimony today, BPW 
Foundation felt it was important to let a JFMP program 
participant tell her own story. Again the goal is to increase 
their confidence and comfort level; and provide experiential 
opportunities to women in the veteran community to advocate on 
behalf of themselves. Mentees and mentors have been interviewed 
and their experiences compiled into concise case-studies as 
well as magazine articles, exemplifying how this program can 
help women, like me, in specific areas such as employment, 
transitioning a successful military career to the civilian 
workplace; interview preparation and salary negotiation; 
starting or building a business and getting to that next career 
step.

    Building Support for Women Veterans through public-private 
partnerships

    I am not surprised that this program has been recognized on 
the national stage both through the White House's Joining 
Forces effort and the Clinton Global Initiative in 2012 and 
2013. The value of JFMP mentorship was also showcased during 
the Veterans on Wall Street conference in November 2012 and 
2013 and has been featured in a wide range of media. For 
example, my story was actually covered on NBC Nightly News.

    One very important aspect of the program is the ongoing 
best practice of leveraging the strengths of JFMP public and 
private-sector partners, which have grown from 40 in 2013 to 70 
in 2014. These partnerships have also enabled BPW Foundation to 
expand the reach of JFMP to include female caregivers of 
wounded warriors and women who have lost a loved one serving in 
the military. As a partner in the Department of Defense's 
Military Spouse Employment Program, mentoring resources for 
spouses are shared. In January 2014, a partnership was forged 
with Tragedy Assistance Program for Survivors (TAPS), which 
enabled JFMP to reach out to women who have lost a loved one 
serving in the military.

    In their effort to reach even more women veterans and 
military/veteran spouses and recognizing the need for 
grassroots, state-level resources and mentoring, BPW now 
partners with the California Commission on the Status of Women 
and Girls, through a state-level portal, California Joining 
Forces Mentoring Plus. The program reaches out to California 
women veterans providing the same high quality free employment 
and career development resources, including identifying 
education needs, training, and credentialing programs, and job 
opportunities. The goal is for this type of state-level, 
public-private partnership to serve as a model for other 
states, particularly those with heavy veteran populations.

    Collaboration and Information Sharing as a Resource 
Multiplier

    We all know that government budgets are tightly stretched. 
That's why BPW Foundation focuses on collaboration and 
information-sharing among partners as a resource multiplier. 
More than ever, coordination among service providers and across 
sectors is needed to most effectively deploy dwindling 
resources. This is especially true given the draw-down of 
troops in Iraq and Afghanistan, and the increasing number of 
military service members transitioning back to civilian life 
over the next few years. BPW Foundation is part of a coalition 
of veteran and military service organizations that meets 
regularly with the Army Public Affairs office to proactively 
address these concerns and to find solutions to meet the needs 
of this growing veteran population.

    In addition to public-sector partnerships, several JFMP 
private-sector and nonprofit partners have renewed their 
commitment (Alliant Credit Union, Citi, Booz Allen Hamilton, 
CVS, Cengage, and others.) and been joined by newer partners 
(Direct Employers, JPMorgan Chase, Northrup Grumman, MTCI, NBC 
Universal, Newman's Own Foundation, and more.) Partners augment 
the resource rich internet platform with career tools, job 
banks and much more, all of which is available free of charge 
to JFMP participants. Thanks to the generous support of BPW 
Foundation and its partners, there is no cost to participate. 
Members benefit from free financial, career transition and 
entrepreneurial/small business tools, products and services 
tailored to meet our unique needs. In addition, many JFMP 
partners' networks of women employees act as mentors also 
providing inside information on specific industries. Focusing 
on and leveraging the strengths of these partners benefits 
everyone, but most importantly, the women JFMP serves.

    BPW Foundation has also targeted its efforts to help JFMP 
participants establish careers in ``non-traditional'' (but 
urgently needed) STEM and IT fields. In 2013 they partnered 
with the National Council for Women and Technology (NCWIT) to 
assist JFMP participants with IT career opportunities and 
resources. In 2014, a partnership with Million Women Mentors 
will also open up STEM career opportunities.

    Support for Women Veteran Small Business Owners

    BPW Foundation has always been a champion of women small 
business owners and many of its members are women business 
owners. Therefore it was natural for BPW Foundation to expand 
their 2013 CGI America commitment to include building resources 
for women veteran entrepreneurs and women veteran small 
business owners. They wanted to step up to help women who have 
served our country, like me, to start and grow our own 
businesses. In May 2013, BPW Foundation conducted a survey of 
women small business owners, to gauge the current environment 
and outline recommendations for improving it. Partnerships with 
Dell/Intel and the National Association for the Self-Employed 
were key to this effort.

    Conclusion

    Thank you, Mr. Chair, for the opportunity to testify and 
share my story about the resources that helped me launch my 
successful career and start my small business. I hope that 
other women veterans will benefit from my experience, and that 
the committee will support programs like the BPW Foundation's 
Joining Forces Mentoring Plus that are tailored for the 
challenges and needs that our women veterans face as we week 
meaningful lives after our time in the military.

                                  ###

    About BPW Foundation: BPW Foundation is a 501 (c)(3) 
located in Washington, DC and has the mission of empowering 
women to reach their full potential. It receives no government 
funding, and is backed by numerous corporations such as Citi, 
Booz Allen Hamilton, Alliant Credit Union Foundation, CVS 
Caremark, Cengage, JPMorgan Chase and Northrop Grumman. Visit 
www.joiningforcesmentoringplus.org or www.bpwfoundation.org to 
learn more.

[GRAPHIC] [TIFF OMITTED] T7757.003

[GRAPHIC] [TIFF OMITTED] T7757.004

[GRAPHIC] [TIFF OMITTED] T7757.005

[GRAPHIC] [TIFF OMITTED] T7757.006

[GRAPHIC] [TIFF OMITTED] T7757.007

[GRAPHIC] [TIFF OMITTED] T7757.008

[GRAPHIC] [TIFF OMITTED] T7757.009

[GRAPHIC] [TIFF OMITTED] T7757.001

[GRAPHIC] [TIFF OMITTED] T7757.002

      BEFORE THE COMMITTEE ON SMALL BUSINESS OF THE U.S. HOUSE OF 
                            REPRESENTATIVES


  ``Military to Entrepreneurship: Private Sector Initiatives to Help 
               Veterans Pursue Business Opportunities.''


                    Testimony of Charleston Malkemus


                     Founder and CEO, Gozump, Inc.


    Good morning, Chairman Graves, Ranking Member Velazquez, 
and distinguished members of the Committee. My name is 
Charleston Malkemus and I am the founder and chief executive of 
Gozump, Inc. Thank you for providing us with an opportunity to 
share our understanding of the importance of aiding a service 
member's transition to entrepreneurship.

    The ``next'' greatest generation of America is coming home. 
Over the next 5 years America will have more than a million 
service members coming home, who have been fighting this 
nation's battles for over a decade. They have endured every 
hardship known to man. They have been diplomats and community 
leaders, restoring people's homes and freedoms, problem solvers 
of unparalleled complexity, and, leaders of some the nation's 
best and brightest. All of them volunteered to serve and 
potentially sacrifice for the greatness of this country. They 
represent less than half a percent of America and are this 
country's greatest resource.

    We have an opportunity to capitalize on the surge of 
veteran talent coming home in order to move America forward. 
Whether through America's small businesses or leading new 
ventures, veterans have a wealth of capabilities that are 
ideally suited to solving this nation's problems. While they 
will be confronted with many challenges reintegrating into 
civilian life, none will be greater than finding a way to 
continue to serve. Communities and businesses will benefit the 
most from directly engaging veterans with their problems and 
providing them with the resources and equipment to overcome 
them.

    Private sector initiatives have to be prepared for 
transitioning veterans. Hiring Our Heroes, a program of the 
U.S. Chamber of Commerce Foundation, is an excellent example of 
the efforts necessary. Working with their vast network of 
chambers and strategic partners, Hiring Our Heroes has been 
creating a movement across America. They are rallying 
communities to find veterans and their spouses meaningful 
employment while supporting the work of veteran-friendly 
businesses, like Gozump, who have made ongoing commitments to 
veterans in their community.

    Background on Gozump

    Gozump's story began way back on the battlefields of Iraq. 
During my second deployment I was leading a Scout Sniper 
Platoon through OPERATION STEEL CURTAIN when I received an 
email about the real estate market back home. In late 2005 the 
market was already showing signs of weakening and I needed to 
sell my townhome in San Clemente, California. I remembered the 
process of moving across the country when I was transferred to 
Camp Pendleton California and how difficult it was to find, 
finance, insure, and move into a new home. Now I was being 
confronted with the challenges of selling my home. I needed an 
application capable of connecting me remotely and giving me 
control over the process. Unfortunately one did not exist. I 
realized very quickly these were not isolated issues, but 
problems that were about to rock the nation.

    When the real estate market came crashing down in 2008, I 
recognized the same friction points where sweeping across the 
country. Americans needed a simpler and more affordable way to 
understand and manage the process of buying and selling a home. 
Fully aware of the magnitude of this problem I began a very 
deliberate endeavor to solve it. After years of research, 
planning, and recruiting, Gozump launched in June of 2012 with 
a team of Marines on a mission to combat one of the most 
frustrating and inefficient processes in the Internet age, 
buying a home.

    Buying a home requires the concerted collaboration of 
multiple parties. One transaction often encompasses three major 
industries, a dozen specialists, and thousands of dollars. Each 
party comes with its own regulations, licensing, conduct and 
costs. In other words there is a reason this is complicated.

    Gozump's mission is to champion home buying for military 
families across America in order for them to achieve financial 
freedom. We accomplish this through technology, training, and 
advocacy. When we began building one of the most comprehensive 
technology platforms for home owners and buyers, we understood 
the inherent complexities of real estate could not be reduced 
beyond a certain point. We immediately began developing a 
curriculum around real estate to pair with our technology. 
While this will give consumers the tools and knowledge they 
sorely lack to make better decisions much of the inefficiencies 
we would change are in the hands of regulators. At every 
opportunity we continue to advocate for a more optimal 
administration of real estate transactions particularly on 
behalf of military families.

    Active duty Service Members are often required to relocate 
every three years. The sheer velocity of movements around the 
country make this a particularly distressing problem in terms 
of cost, friction, and stress for the military household. We 
are one hundred percent committed to the elimination of this 
problem for the US Military. When we began reaching out to 
community organizations to tackle this and other issues facing 
military families, we had the honor of working and partnering 
with some incredible organizations: the American Red Cross, the 
United Way, and the U.S. Chamber of Commerce Foundation to name 
a few. Many of which have come out in force to support the 
military community and the variety of issues facing them.

    U.S. Chamber of Commerce Foundation

    My initial interaction with the U.S. Chamber of Commerce 
Foundation and their Hiring our Heroes program goes back to 
when I was the unit commander of a 156 Marine reserve 
detachment. Most of the Marines under my charge were struggling 
to find employment. Some were sleeping in their cars, because 
they couldn't make ends meet. Others were trying to go to 
school to have a better future. All of them were hard working 
Americans with too much pride to seek out relief. I had a lot 
of active duty Marines, who joined the reserve unit to ease the 
transition, and saw first hand how difficult it was for them.

    I sat on Joint Task Forces for veterans, participated in 
regional board discussions, and attended enough business 
breakfasts to make this assessment. The campaign to support 
posttraumatic stress disorder (PTSD) appears to have had a 
negative impact. While sympathetic, many American business 
owners feel completely alienated from their military and PTSD 
has only increased this feeling. Most business leaders, who 
struggle with hiring veterans, cite the liability of PTSD as 
the number one concern. Others question their capabilities, 
business skills, or how best to manage them. Despite these 
potential concerns, veterans in business remain unaffected and 
consistently lead the charge for recruiting and hiring other 
veterans. While veteran led businesses continue to be a 
cornerstone for veteran employment, the Hiring Our Heroes 
program has greatly reduced the separation between America's 
military and businesses.

    The US Chamber of Commerce Foundation with its vast network 
of state and local chambers as well as their extensive list of 
strategic partners has convinced a lot of mainstream companies 
to hire veterans through their Hiring Our Heroes program. 
Having sent many of my Marines to their job fairs I've had 
ample feedback on their experiences. For those companies 
interested in tapping into the talent of America's fighting men 
and women it is one of the best places to be.

    When we began Gozump we recognized that Hiring Our Heroes 
and their job fairs was an incredible resource for engaging the 
veteran community. We've used their job fairs for both 
awareness and recruiting campaigns with much success. In fact a 
Hiring Our Heroes job fair is where we shaped a lot of our 
opinions about transitioning service members.

    Many of them were immediately drawn to Gozump purely 
because we were a team of Marines. They craved to be valued, 
respected, and understood for who they were and what they had 
accomplished as Military men and women. They commented on our 
camaraderie and commitment to each other, which resonated with 
their military experiences. Most importantly they deeply 
desired to continue to serve. In choosing the military they had 
chosen a life of purpose and now they were confronted with the 
challenging task of finding one in corporate America. Our 
mission to change real estate forever captured the same 
idealistic fervor that led many of them to enlist.

    This knowledge has fueled my active support for veterans in 
startups. As an American veteran I've enjoyed great 
satisfaction working in the startup community and have found 
combat veterans to be ideal candidates for startups. With a 
high operational tempo, grand mission statements, and equity-
based compensation a startup is the closest replacement for 
military life. Veterans are not only familiar with high stress, 
volatile, fast paced working conditions; many of them thrive in 
them. Most have already worked in small, driven, and focused 
teams like those found in startups across the country and 
perform better. They've been conditioned to work insane hours 
to accomplish incredible objectives. Startups and even small 
businesses simply give veterans an ability to be rewarded in 
proportion to their achievements either through compensation, 
promotion, or both; and, most smaller companies can do it 
better than larger ones.

    With 1.5 million military members transitioning over the 
next five years small businesses have a tremendous opportunity 
to tap into this talent pool and propel their operations 
forward. Hiring Our Heroes job fairs already provide access to 
the veteran community. All small businesses have to do is 
effectively communication their objectives and allow veterans 
to use their tactical abilities to engineer solutions and make 
things happen.

    Hiring Our Heroes is leading the charge for transitioning 
veterans and their spouses into meaningful employment 
opportunities. Their active network of businesses, strong 
reputation with the military, and pervasive job fairs have done 
more than other organization to bring military and business 
communities together. Even with this much success they persist, 
finding ways to catalyze communities and advance their mission.

    Last year Gozump had the great honor of being selected for 
a national competition, which highlighted the efforts of 
veteran-friendly small businesses. Small businesses are 96% of 
the Chamber's member companies. They recognized an opportunity 
to support those small businesses showing dedication and 
innovation in hiring our veterans. Through Hiring Our Heroes, 
the U.S. Chamber of Commerce Foundation teamed up with Spike 
TV's Hire A Vet campaign to host the first national competition 
to find the most veteran-friendly small business in America.

    After receiving strong applications from across the 
country, Gozump was selected as one of the eight finalists and 
continued to advance to the Final Four. As part of the 
competition we were judged on our innovative recruiting and 
retention strategies for veterans, our leadership and 
engagement in the veteran community, and our ongoing 
commitments. This allowed us to form relationships with our 
fellow contestants and learn a lot from their initiatives. The 
competition was a great platform for rallying local communities 
around their contestants and encouraging other small businesses 
to join this movement. We received active support from Members 
of Congress, local commissioners, mayors, and business leaders, 
which really helped to highlight the vital role veterans and 
veteran-owned businesses play in our local economy.

    In an effort to build on this momentum and carry on the 
spirit of the Chamber Foundation's initiative, Gozump led an 
81-mile march. Over Labor Day weekend we marched from Palm 
Beach to Miami Florida carrying a flag from the battle of 
Fallujah. We picked up supporters in every town en route to the 
Mayor of Miami's office where we presented him with the flag as 
a symbol of American heroism. We urged community members to 
turn to the next greatest generation of Americans coming home. 
After over a decade of war and sacrifice their perseverance 
would be crucial to moving America forward.

    Moving America Forward

    Startups across America are continuing to find ways to 
advance processes and industries through technology. Their 
access to data is not only a vital component of their success, 
but often a primary factor in preventing it. If we are to fully 
realize the benefits of American innovation, government efforts 
at all levels to modernize and make available public 
information are necessary.

    Entrepreneurs and small businesses remain the beating heart 
of the American economy. When I was first introduced to the 
Small Business Administration (SBA), about 15 years ago, their 
resources and networks were the dominant ones available to 
entrepreneurs. Over the years I've engaged, or made us of, a 
variety of their programs, including, Veteran Business Outreach 
Centers, Small Business Investment Companies, and the Service 
Corps of Retired Executives. Since then, the landscape for 
entrepreneurs has changed dramatically. Cities across America 
are developing startup incubators, accelerators, Meetup groups, 
and networks of advisors and investors. The access to capital 
is shifting away from traditional lending in favor of equity. A 
plethora of bloggers, events, and conferences have given 
entrepreneurs access to an endless supply of resources and 
advice. The process of launching a business has been completely 
disrupted and accelerated.

    Today the private sector has a strong bias for lean 
startups that find creative ways to bring minimally viable 
products to market. This type of methodology has caused a 
fundamental shift in the way entrepreneurs start businesses. A 
business canvas model is replacing the traditional business 
plan. Product research and development happen concurrently with 
market feedback. And traction in many cases is prioritized 
before revenue. Entrepreneurs skilled in executing these 
methods reduce their risks, costs, and time to launch.

    Many veterans with their financial resources, independent 
spirit, risk tolerance, commitment to serve, and management 
capabilities will naturally choose entrepreneurship. Studies 
have shown they are forty-five percent (45%) more likely to 
start a business, twice as likely to succeed, and favored by 
consumers seventy percent (70%) of the time. Those coming home, 
who do choose entrepreneurship, are going to need both 
direction and resources to be successful. Unfortunately a 
national veteran program for entrepreneurship on par with the 
Chamber Foundation's initiative for employment does not exist. 
Even within the private sector we've noticed a shortfall in 
programs focused on veterans transitioning into 
entrepreneurship, and resources on startups available to 
veterans. As a result, our team has decided to initiate a 
veteran focused program in South Florida and we encourage other 
communities and established programs to do the same.

    Veterans are best positioned to solve problems, whether as 
valuable team members in America's small businesses, or leading 
new ventures. This absolute commitment to service is what we 
love about America's military, and happens to be the most 
powerful ingredient to a successful transition. With or without 
direction they will find problems to be solved. We are already 
beginning to see the formation of non-profits, enterprises, and 
initiatives all across the country helmed by veteran leaders. 
The communities and businesses that effectively orient our 
veterans will benefit dramatically from their efforts. They 
only need to direct them toward problems at home and provide 
them with the limited resources and equipment to overcome them.

    Conclusion

    Paving the way for America's future begins with the next 
greatest generation. The U.S. Chamber of Commerce Foundation 
and the private sector are both poised to play pivotal roles in 
the countries ability to capitalize on the surge of talented 
veterans coming home. Programs like Hiring Our Heroes, which 
can orchestrate action at the local, state, and national level, 
are vital to veterans finding employment where they can create 
value for our small businesses. Programs that can prepare and 
equip veterans for entrepreneurship will equally benefit the 
future of America's economic competitiveness.

    Gozump is one small example of the impact these programs 
can have and how beneficial they can be in supporting America's 
current and future small businesses. As a team we've been 
active participants in both the veteran and startup communities 
of South Florida. Collectively we have volunteered hundreds of 
hours in support of regional initiatives to advance both of 
these causes and will continue to do so on behalf of moving 
America forward.

    Chairman Graves, Ranking Member Velazquez, and members of 
the Committee, I thank you again for the opportunity to testify 
and look forward to answering your questions.

[GRAPHIC] [TIFF OMITTED] T7757.010

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
